April 5, 2021
Hon. Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
*** CAPITAL CASE ***
Re:

request for extension of time to file brief in opposition
Alan Dale Walker v. Mississippi, No. 20-1306

Dear Mr. Bickell:
I serve as counsel of record for Respondent in the above captioned case. The
Petition for Writ of Certiorari was docketed on March 19, 2021. Pursuant to Rule 15.3
of the Rules of this Court, a response is currently due on April 19, 2021. Pursuant to
Rule 30.4, Respondent respectfully requests an extension of 30 days, up to and until
May 19, 2021, within which to file its Brief in Opposition. As grounds therefor,
Respondent submits the following:
On behalf of Mississippi Attorney General Lynn Fitch, I have been working
diligently to provide the Court with a complete Brief in Opposition. An extension of
time is necessary because I have a number of competing obligations within the coming
weeks, including briefing deadlines in death penalty cases on direct appeal and on
federal habeas review.
This request is not made for undue delay, and Petitioner will not be prejudiced
by this extension. Undersigned counsel contacted counsel for Petitioner who does not
oppose Respondent’s request for an extension of time. Please contact me should you
have any questions regarding this submission.
Sincerely,
/s/ LaDonna Holland______________
LaDonna Holland
Special Assistant Attorney General

Counsel of Record
Cc: James William Craig, Counsel for Petitioner

550 HIGH STREET • P.O. BOX 220 • JACKSON, MS 39205
TELEPHONE (601) 359-3827
• FAX (601) 359-3185

